                          Office of Inspector General
                          Legal Services Corporation



Inspector General
Jeffrey E. Schanz

3333 K Street , Nw. 3rd Floor
Washington, DC 20007-3558
202.295. 1660 (p) 202.337.6616 (f)
www.oig. lsc.gov


          June 12, 2012


          Mr. David G. Hall
          Executive Director
          Texas RioGrande Legal Aid
          300 South Texas Boulevard
          Weslaco, Texas 78596

          Dear Mr. Hall:

         Enclosed is the Office of Inspector General's (OIG) final report of our audit on Selected
         Internal Controls at Texas RioGrande Legal Aid (TRLA). The OIG has reviewed your
         comments on the findings and recommendations in the draft report and consider your
         proposed actions responsive to Recommendations 1, 2, and 5 through 8. The OIG
         considers TRLA's planned actions to address Recommendation 3 as partially
         responsive and proposed actions on Recommendation 4 as nonresponsive . Therefore ,
         Recommendations 3 and 4 will be referred to LSC management for resolution .

         The OIG considers all eight recommendations as open until notified in writing that all
         actions are completed. The full text of your comments is attached to the report as an
         Append ix.

         Our thanks to you and your staff for the cooperation and assistance provided to us.

         Sincerely,


           \llL~. ~::>
         J~e~Chanz
         Inspector General

         Enclosure

         cc:        James Sandman
                    President, Legal Services Corporation


                                                                                     =IL:LSC
                                                                                     II     "-:ftt:.o'.   ra...e. Fe. f.touIjuoboo
    LEGAL SERVICES CORPORATION
    OFFICE OF INSPECTOR GENERAL




   REPORT ON SELECTED INTERNAL
            CONTROLS



TEXAS RIOGRANDE LEGAL AID, INC.
             RNO 744100



          Report No. AU 12-03

              June 2012

             www.oig.lsc.gov
EXECUTIVE SUMMARY

The Legal Services Corporation (LSC) Office of Inspector General (OIG)
assessed the adequacy of selected internal controls in place at Texas RioGrande
Legal Aid (grantee) related to specific grantee operations and oversight. Audit
work was conducted at the grantee’s main office in Weslaco, Texas, its branch
offices in Austin, El Paso and San Antonio, Texas, and Nashville, Tennessee,
and at LSC headquarters in Washington, DC. Six separate on-site visits were
conducted from May 2010 through January 2011.              Documents reviewed
pertained to the period January 1, 2009 through Jun 15, 2010.

The grantee’s internal controls need to be strengthened. While many of the
controls were generally adequately designed and properly implemented as the
controls related to specific grantee operations and oversight, some controls need
to be strengthened and formalized in writing. The grantee needs to place more
emphasis on establishing, documenting, and enforcing all internal controls.

Grantee disbursements tested generally were adequately supported and
allowable. The grantee’s current practices involving internal management
reporting and budgeting were generally in accordance with the LSC’s
Fundamental Criteria.      Internal controls over employee benefits and
reimbursements were generally adequate. Policies over employee benefits were
in writing and adhered to.

The cost allocation system needs to be strengthened. Specifically, the cost
allocation system was not adequately documented. Non-personnel central office
administrative and management overhead expenses were not allocated to the
Public Defender Programs resulting in LSC funds possibly subsidizing prohibited
activities. The method used to allocate costs for six separate migrant grants was
not based on actual work conducted in each of the six service areas.

Also, the grantee needs to enforce policies and procedures for credit card
purchases, filing of travel vouchers, and obtaining prior approval for travel.
Policies and procedures need to be fully developed, documented, and
implemented relating to soliciting and awarding contracts, reimbursing
employees for cell phones, and prohibiting the use of LSC funds to purchase
alcoholic beverages.

The OIG made eight recommendations. Three recommendations address the
need to document the cost allocation system; ensure that front office costs are
allocated to the grantee’s Public Defender Programs; and develop a cost
allocation system for migrant grants that accurately accounts for the expenditure
of LSC funds for each grant and ensures that LSC funds provided are spent for
services applicable to the respective service area. Two recommendations
address the need to enforce policies in place for credit card purchases; require

                                        i
the filing of travel vouchers; and obtain and document supervisory approval prior
to travel. Finally, three recommendations suggest that written policies and
procedures be put in place for contracting and consulting agreements; the use
and reimbursement for cell phones and other electronic devices; and, prohibiting
the use of LSC funds to purchase alcoholic beverages.

Summary of Grantee Comments:

Grantee management generally agreed with six of the eight recommendations.
Management disagreed with Recommendations 3 and 4.

Grantee management disagreed with Recommendation 3, but stated it will seek
LSC approval of how it currently operates the Southern Migrant Legal Services
(SMLS) program. Grantee management stated that because of the nature and
the relatively small amount of the grants it would be “…virtually impossible to
guarantee that the grant in any given state in any given year will exactly match the
operations and service provided in that state.” Grantee management stated that it
will request LSC management approval to pool the funding for the migrant grants.

As for Recommendation 4, grantee management did not cite any corrective action
planned with regard to the first part of the recommendation, which was to ensure
that credit card receipts are submitted. Grantee management responded to the
second half of the recommendation by stating that the Executive Director adds
adequate explanatory information on the credit card billing to support his charges,
but he does not file a travel reimbursement form because he does not seek
reimbursement for his travel expenses. However, the Executive Director would
file a travel reimbursement request if he did seek such reimbursement.

OIG Overall Evaluation of Grantee’s Comments:

The OIG considers grantee management planned actions to be responsive to six
of the eight recommendations. The OIG considers the grantee’s response to
Recommendation 3 as partially nonresponsive and to Recommendation 4 as
nonresponsive, and will refer the two recommendations to LSC management for
resolution. The OIG considers all eight recommendations open.

Grantee management stated that it planned to address Recommendation 3 by
requesting that LSC management approve the pooling of the individual state
migrant funds for the six-state region known as Southern Migrant Legal Services
(SMLS) that is based out of Nashville, Tennessee. The OIG does not consider
the grantee’s proposal as entirely responsive to the recommendation. The
grantee’s proposal does not address the finding that the grantee’s allocation
methodology for SMLS is inadequate. Regardless of whether LSC management
approves pooling of the funds in question, the grantee needs to implement an
acceptable allocation methodology for those funds. Each of the six grants is
competed for separately and awarded separately. As such, each grant is required

                                         ii
to be accounted for separately. Recommendation 3 will remain open and will be
forwarded to LSC management for resolution.

Grantee management’s proposed action to Recommendation 4 does not address
the need to ensure that credit card receipts are submitted by all staff and that all
employees, including the Executive Director, file a travel voucher as required by
the grantee’s policies. The grantee’s employee handbook provides no exceptions
for filing a voucher whether the expense is paid to the employee or to a vendor.
The OIG considers grantee management actions as nonresponsive to
Recommendation 4 and will refer the recommendation to LSC management for
resolution.




                                         iii
                                          TABLE OF CONTENTS

INTRODUCTION ........................................................................................ 1
BACKGROUND ......................................................................................... 1
OBJECTIVE ............................................................................................... 3
SCOPE AND METHODOLOGY ................................................................. 3
OVERALL EVALUATION ........................................................................... 4
AUDIT FINDINGS ...................................................................................... 4
    Cost Allocation ...................................................................................... 4

    Basic Field Grant Cost Allocation.......................................................... 5
       Recommendation 1 ......................................................................... 5
       Recommendation 2 ......................................................................... 5
       Grantee Comments ......................................................................... 5
       OIG Evaluation of Grantee Comments ............................................ 6

    Migrant Grant Cost Allocation ............................................................... 6
       Recommendation 3 ......................................................................... 6
       Grantee Comments ......................................................................... 6
       OIG Evaluation of Grantee Comments ............................................ 7

    Credit Card Transactions ...................................................................... 7
       Recommendation 4 ......................................................................... 8
       Grantee Comments ......................................................................... 8
       OIG Evaluation of Grantee Comments ............................................ 8

    Prior Approval for Out-of-Town Travel ................................................. 9
        Recommendation 5 ......................................................................... 9
        Grantee Comments ......................................................................... 9
        OIG Evaluation of Grantee Comments ............................................ 9

    Documenting Policies and Procedures ................................................. 9
    Contracts and Consulting Agreements ............................................... 10
      Cell Phones ................................................................................... 10
      Prohibited Purchases ................................................................... 11
          Recommendation 6 .................................................................. 11
          Recommendation 7 .................................................................. 11
          Recommendation 8 .................................................................. 11
          Grantee Comments .................................................................. 11
          OIG Evaluation of Grantee Comments ..................................... 11

APPENDIX I – GRANTEE MANAGEMENT COMMENTS
                                  INTRODUCTION

The Legal Services Corporation (LSC) Office of Inspector General (OIG) assessed the
adequacy of selected internal controls in place at Texas RioGrande Legal Aid (grantee)
related to specific grantee operations and oversight. Audit work was conducted at the
grantee’s main office in Weslaco, Texas, its branch offices in Austin, El Paso and San
Antonio, Texas, and Nashville, Tennessee, and at LSC headquarters in
Washington, DC. Six separate on-site visits were conducted from May 2010 through
January 2011. Documents reviewed pertained to the period January 1, 2009 through
Jun 15, 2010.

In accordance with the Legal Services Corporation Accounting Guide for LSC
Recipients (2010 Edition) (Accounting Guide), Chapter 3, an LSC grantee “…is
required to establish and maintain adequate accounting records and internal control
procedures.” The Accounting Guide defines internal control as follows:

      [T]he process put in place, managed and maintained by the
      recipient’s board of directors and management, which is designed
      to provide reasonable assurance of achieving the following
      objectives:

      1. safeguarding of assets against unauthorized use or disposition;
      2. reliability of financial information and reporting; and
      3. compliance with regulations and laws that have a direct and
         material effect on the program.

Chapter 3 of the Accounting Guide further provides that each grantee “must rely upon
its own system of internal accounting controls and procedures to address these
concerns” such as preventing defalcations and meeting the complete financial
information needs of its management.


                                  BACKGROUND

Texas RioGrande Legal Aid was established in 1970 as Texas Rural Legal Aid to
provide legal aid to nine counties in southern Texas. By 1977, it became the provider
for migrant legal services on a state-wide basis. In 2002, it merged with four other
Texas legal aid programs, and in 2004 took on its current name. As of 2010, the
grantee maintained 15 offices throughout the state with program headquarters located
in Weslaco. The grantee also operates the Southern Migrant Legal Services Project
(SMLS) that serves migrant farm workers in Alabama, Arkansas, Kentucky, Louisiana,
Mississippi and Tennessee. SMLS operates out of Nashville, Tennessee and is
funded through individual migrant grants for each state served.




                                          1
The grantee is funded principally by LSC and the Texas Access to Justice Foundation.
The grantee also receives smaller grants from a variety of federal, state and local
agencies, including the United States Department of Justice, Department of Housing
and Urban Development, and Internal Revenue Service. Other funding comes from
individual donations and grants from various foundations and corporations. In addition,
it receives funding from the Texas Task Force on Indigent Defense and eight counties
to provide public defender services in criminal cases through offices in Del Rio,
Raymondville and Beeville.

LSC Basic Field Migrant Grant (migrant grant) is basic field funding that is specifically
granted to address the legal needs of migrant farm workers. For states receiving
migrant grants, LSC’s funding formula attempts to identify the size of the migrant farm
worker poverty population in the state. Once the population is identified, money is
allocated, in the form of a migrant grant, from the basic field grant(s) for that state at
the same per capita rate as the basic field grant. States with a migrant grant receive
the same amount of total LSC basic field funding that would have been received if
there was no migrant grant. The only difference is that states with migrant grants have
funds specifically allocated to address the legal needs of migrant farm workers. Thus,
funding for SMLS comes from a portion of LSC’s basic grant funds awarded to the
aforementioned six states through migrant grants. According to the Executive Director,
the grantee supplements SMLS funding with LSC funds from the Texas migrant
program when a SMLS case involves a Texas resident or if workers were hired in
Texas.

According to the audited financial statements for the grantee’s fiscal year ended
September 30, 2010, the grantee received over $13.5 million from LSC for that period.
This amount included over $11.6 million for the basic grant, $1.5 million for Texas
migrant grant, $35,408 for Native American grant, $22,000 for a Technology Initiative
Grant and $341,895 in migrant grants for the SMLS program. The migrant grant
amount by state for the SMLS program is listed below:

      Alabama       $37,182
      Arkansas      $89,321
      Kentucky      $48,096
      Louisiana     $31,122
      Mississippi   $64,495
      Tennessee     $71,679

According to its audited financial statements for the fiscal year ended September 30,
2010, the grantee also received over $11.9 million from other sources, primarily the
Texas Access to Justice Foundation.




                                            2
                                     OBJECTIVE

The overall objective was to assess the adequacy of selected internal controls in place
at the grantee as the controls related to specific grantee operations and oversight,
including program expenditures and fiscal accountability. Specifically, the audit
evaluated selected financial and administrative areas and tested the related controls to
ensure that costs were adequately supported and allowed under the LSC Act and LSC
regulations.


                           SCOPE AND METHODOLOGY

To accomplish the objective, controls over disbursements, internal management
reporting and budgeting, employee benefits and reimbursements were reviewed and
tested to ensure the controls were adequately designed and operating as intended. To
obtain an understanding of the internal controls over these areas, grantee policies and
procedures were reviewed, including manuals, guidelines, memoranda, and directives
setting forth current grantee practices. Grantee officials were interviewed to obtain an
understanding of the internal control framework and management and staff were
interviewed as to their knowledge and understanding of the processes in place. We
assessed the reliability of computer generated data provided by the grantee by reviewing
source documentation for the entries selected for review. We determined that the data
were sufficiently reliable for the purposes of this report.

To test the controls and the appropriateness of expenditures and the existence of
adequate supporting documentation, disbursements from a judgmentally selected
sample of employee and vendor files were reviewed. The sample was taken from the
period January 1, 2009, through June 15, 2010, and comprised 114 transactions
totaling $88,680. To assess the appropriateness of expenditures, we reviewed
invoices, vendor lists, and general ledger details. The appropriateness of those
expenditures was evaluated on the basis of the grant agreements, applicable laws and
regulations, and LSC policy guidance.

To evaluate internal controls over internal management reporting and budgeting, the
grantee’s system and processes were compared to those detailed in the Accounting
Guide, Chapter 3, Section 3-5, Fundamental Criteria. Controls over employee benefits
and reimbursements were reviewed by examining the Collective Bargaining Agreement
and other personnel policies and practices, and by testing a judgmentally selected
sample of employee reimbursements as part of the disbursements testing.

This review was limited in scope and was not sufficient for expressing an opinion on
the entire system of grantee internal controls over financial operations.

Six separate on-site visits were conducted during the period May 2010 through
January 2011. Audit work was conducted at the grantee’s main office in Weslaco,
Texas, its branch offices in Austin, El Paso and San Antonio, Texas, and Nashville,


                                           3
Tennessee, and at LSC headquarters in Washington, DC.            Documents reviewed
pertained to the period January 1, 2009 through Jun 15, 2010.

This audit was conducted in accordance with generally accepted government auditing
standards. Those standards require that the audit be planned and performed to obtain
sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. The OIG believes that the evidence
obtained provides a reasonable basis for the findings and conclusions based on the
audit objectives.


                              OVERALL EVALUATION

The grantee’s internal controls need to be strengthened. While many of the controls
were generally adequately designed and properly implemented as the controls related
to specific grantee operations and oversight, some controls need to be strengthened
and formalized in writing. The grantee needs to place more emphasis on establishing,
documenting and enforcing all internal controls.

Grantee disbursements tested generally were adequately supported and allowable.
The grantee’s current practices involving internal management reporting and budgeting
were generally in accordance with the LSC’s Fundamental Criteria. Internal controls
over employee benefits and reimbursements were generally adequate. Policies over
employee benefits were in writing and adhered to.

However, the cost allocation system needs to be strengthened, as the cost allocation
system was not adequately documented. Non-personnel central office administrative
and management overhead expenses were not allocated to the Public Defender
Programs resulting in LSC funds possibly subsidizing prohibited activities. The method
used to allocate costs for six separate migrant grants was not based on actual work
conducted in each of the six service areas.

Also, the grantee needs to enforce policies and procedures for credit card purchases,
filing of travel vouchers, and obtaining prior approval for travel. Policies and
procedures need to be fully developed, documented, and implemented relating to
soliciting and awarding contracts, reimbursing employees for cell phones, and
prohibiting the use of LSC funds to purchase alcoholic beverages.


                                  AUDIT FINDINGS

COST ALLOCATION

Cost allocation systems needed to be improved. The cost allocation system for the
Basic Field Grant was not fully documented and did not allocate a share of front office
expenses to the grantee’s Public Defender Programs. Migrant grant costs were not

                                          4
allocated based on actual expenditures made for each of the six state service areas
but rather on the percentage of each grant to the total amount of the migrant grants.

       o Basic Field Grant Cost Allocation

The grantee’s cost allocation methodology was not fully documented in its accounting
manual as required by LSC’s Accounting Guide1. During our audit, the Chief Financial
Officer (CFO) provided the OIG with a written description of the process, but
acknowledged that the written description had not been approved by the board of
directors. While the provided information was a general description of an allocation
system, it did not specifically detail how the grantee allocates costs to its various
grants. In addition, based on discussions with the CFO and a review of information
provided by the CFO, the grantee was not allocating non-personnel central office
administrative and management overhead expenses to its Public Defender Programs,
units engaged in activity prohibited from receiving or using LSC funds. These
expenses included the overhead costs associated with operating the central office, i.e.,
rent, utilities, supplies, training, etc. The vast majority of the central office non-
personnel administrative overhead costs were allocated to LSC funds. As a result,
LSC funds may have been used to subsidize prohibited activities.

We could not readily determine from the information provided, the dollar amount of
non-personnel central office administrative and management overhead expenses. As
such, we could not estimate the amount of these costs that should have been allocated
to the Public Defender Programs. Therefore, we are not processing a questioned cost,
but are forwarding this issue to LSC management for further review and action.

Recommendations: The Executive Director should ensure:

Recommendation 1: that the allocation system is fully documented.

Recommendation 2: that the allocation system includes a methodology to allocate a
fair share of the central office costs to the Public Defender Programs.

Grantee Comments: The Executive Director stated that “the cost allocation measures
are being reviewed and edited, and will be included in the TRLA accounting policies
and procedures manual. They will also be presented to the Board of Directors when
that process is completed.” The Executive Director further stated that “TRLA will
assure that all indirect non-personnel costs for the administration of the defender
programs will be allocated to those grants or to unrestricted funds.”




1
  During a portion of the audit, the previous LSC Accounting Guide was in effect. The revised
Accounting Guide for LSC Recipients (2010 Edition) became effective on August 23, 2010, and requires
that the cost allocation methodology be in writing.


                                                 5
OIG Evaluation of Grantee Comments: Grantee management planned actions are
responsive to Recommendations 1 and 2. The recommendations will remain open until
all grantee actions are completed and the OIG is notified in writing.

   o Migrant Grants Cost Allocation System

The cost allocation system for the migrant grants was not based on the expenditures
made providing services to clients in each service area. Rather, costs were allocated
based on the percent of each grant to the combined total of the six migrant grants
received. In effect, the six migrant grants were being treated as a single grant with one
service area. Costs are not allocated based on the actual time SMLS attorneys and
paralegals spend on cases and costs associated with migrant activities in each state,
which we believe would more accurately reflect the migrant services provided to each
state service area. The SMLS Branch Manager acknowledged that costs are not
allocated based on actual time spent, explaining that one cannot plan or expect to have
funding match services on an annual basis. However, because each grant is
competed separately for work that pertains to a specific state service area and each
migrant grant has its own grant documents and grant assurances, each migrant grant
is required by LSC to be properly and separately accounted for.

According to grant competition documents for the last two 3-year cycles (calendar
years 2007 and 2010), the migrant grants for each state service area were not
competed as a six-state block; rather, they were competed independently for each
state service area. We found no agreement with LSC or representation by LSC that
would allow these funds to be pooled as one fund, or to subsidize work in one state
service area with funds from another. As a result each grant was not being properly
and separately accounted for and there was no assurance that each service area
received its allotted amount of LSC funding.

Recommendation 3:       The Executive Director should ensure that a cost allocation is
developed that accurately accounts for the expenditure of LSC funds for each migrant
grant and that the LSC funds provided are expended for services applicable to the
respective service area.

Grantee Comments: Grantee management disagreed with the recommendation and
stated it would seek LSC management approval to pool the migrant funds of the six-
state region operating as the Southern Migrant Legal Services (SMLS) program.
Grantee management further stated that “…because of the patterns of migrant
agricultural employment, the nature of migrant legal services, and the de minimis size of
the individual state’s grants, it is virtually impossible to guarantee that the grant in any
given state in any given year will exactly match the operations and services provided in
that state.” The grantee acknowledges that it has pooled the funding of the six states
that comprise SMLS since 2001 to cover services to migrant agricultural workers
employed in the region. Grantee management contends that it could not operate
SMRLS effectively without pooling funds and will request LSC management approve
that arrangement.

                                             6
OIG Evaluation of Grantee Comments: The OIG considers the grantee’s response
as partially responsive. Grantee management stated that it planned to address
Recommendation 3 by requesting that LSC management approve the pooling of the
individual migrant funds from the six states that comprise the SMLS program. The OIG
considers the grantee’s proposal as only partially responsive to the recommendation.
The grantee’s proposed actions do not address the portion of the recommendation
pertaining to developing a cost allocation that accurately accounts for the expenditure of
LSC funds for each migrant grant and that the LSC funds provided are expended for
services applicable to the respective service area. Regardless of whether LSC
management approves pooling of the funds in question, the grantee needs to implement
an acceptable allocation methodology to account for and allocate those funds by grant.
Each of the six grants is competed for separately and awarded separately. As such,
each grant is required to be accounted for separately. Properly monitoring costs
through an acceptable allocation system provides grantee management with the
necessary information to properly manage its activities in the individual states and helps
ensure grant funds from one state are not used to subsidize the migrant work in another
state. Recommendation 3 will remain open and will be forwarded to LSC management
for resolution.


CREDIT CARD TRANSACTIONS

Receipts for credit card purchases were missing. A test of disbursements noted that
27 of 38 charges on 3 credit card statements did not have receipts attached from the
vendors. The 27 charges without receipts amounted to $2,091 and receipts were
missing for 8 of 10 charges for meals, and for 19 of 28 other non-dining charges.
Grantee senior management was responsible for all 38 purchases, of which 24 were
travel related.

The grantee’s policy on meals requires that when an employee is authorized to
represent the grantee at a breakfast, luncheon or dinner meeting, reimbursement is
provided if receipts are presented. As for travel reimbursements, the grantee requires
that receipts be attached to travel vouchers depending on the type of travel
undertaken.

While the Executive Director did not provide receipts for his purchases, the credit card
bills did contain abbreviated, handwritten notes describing the charges. These notes,
however, were somewhat cryptic, using abbreviations, and sometimes difficult to read.
During our discussion with the CFO about the Executive Director’s credit card charges,
we were told there were no travel expense reports for the Executive Director.
Nevertheless, we were able to generally satisfy ourselves that the charges were
business related.

We do have concerns about the overall control environment. Senior management is
responsible for establishing the internal controls, ensuring that they are functioning as

                                            7
designed, and enforcing their use. When senior management overrides the controls
established or does not follow the control requirements established, the entire control
environment is weakened and can signal to the remainder of the staff that the controls
are not important and need not be followed. A weakened control environment provides
increased opportunities for fraud.

Recommendation 4:      The Executive Director should ensure that policies and
procedures are followed by staff members, including ensuring that credit card
purchases are supported by receipts and that travel reports are filed as required for all
travel.

Grantee Comments: Grantee management stated that the Executive Director in
reviewing the credit card statement adds explanatory information where necessary to
allow an auditor to evaluate the appropriateness of the expense and its allocation. The
response further states that all of this information that would be noted in a travel
reimbursement form is noted on the credit card statement. Grantee management then
stated that the Executive Director does not file a travel voucher because he does not
seek reimbursement for his travel expenses, but that he would file a travel
reimbursement request if he did seek such reimbursement.

OIG Evaluation of Grantee Comments: Grantee management proposed action is not
responsive to the recommendation. The proposed action does not address the need to
ensure that credit card receipts are submitted by all staff and that all employees,
including the Executive Director, file a travel voucher as required. When senior
management overrides or exempts itself from the organization’s policies, the overall
control environment is weakened and may signal to the staff that it is not important to
follow all policies. The grantee’s employee handbook requires all travelers to file a
Travel Authorization and Advance Request for out of town travel and a Travel Expense
Report or a Local Travel Expense Report. The handbook provides no exceptions for
filing a voucher whether the expense is paid to the employee or to a vendor.

The response does not require the Executive Director to file travel vouchers when he
incurs official business expenses. Grantee management agrees that a voucher should
be filed when reimbursement is requested, but then argues that the Executive Director
does not seek reimbursement for out-of-pocket travel expenses and thus does not need
to file a travel voucher. The OIG disagrees with exempting the Executive Director from
filing a travel voucher. While the Executive Director does not seek to be personally
reimbursed for some charges related to his official travel, he is, in fact, having the
grantee pay other expenses. It is irrelevant whether a travel expense results in
reimbursing the individual or whether the payment is made directly to a vendor for a
travel charge made by that individual; the charge is a travel expense and needs to be
accounted for as such. The action proposed in response to Recommendation 4 is not
adequate and the OIG considers this recommendation open. The OIG considers
grantee management actions as nonresponsive to Recommendation 4 and will refer the
recommendation to LSC management for resolution.



                                           8
PRIOR APPROVAL FOR OUT-OF-TOWN TRAVEL

The grantee could not provide documentation of supervisory authorization prior to
employees embarking on out-of-town travel as required by the grantee’s written travel
policy. Our test of disbursements included 46 reimbursements for employee out-of-
town travel. We noted that none of the vouchers for out-of-town travel included
documentation of supervisory approval, and the grantee was unable to provide
evidence of prior approval.

In response to the question whether out-of town travel was being approved before
each trip as required by the employee handbook, the CFO stated that the traveler’s
immediate supervisor provides approval via email. The CFO further stated that the
grantee does not print out the emails because it is trying to reduce the amount of paper
filed as it moves to an electronic system of documentation and payment.

The grantee’s travel policy states that primary supervisors must approve in advance all
out-of town travel but does not state how that approval should be documented. Even
though the CFO states that prior approval is by email, a system has not been designed
to ensure that all out-of-town travel approval is retained, either electronically or in
documentary format, as evidence of supervisory approval and compliance with the
grantee’s travel policies. Requiring documentation of supervisory approval for staff
travel prior to travel helps ensure that only authorized travel is reimbursed and reduces
the potential for abuse.

Recommendation 5:     The Executive Director should take action to ensure
compliance with the grantee’s policy on documenting supervisory approval prior to
employees embarking on out-of-town travel.

Grantee Comments: Grantee management stated it will revise the policy to require
prior written approval for out-of-town travel.

OIG Evaluation of Grantee Comments:         The grantee’s planned actions are
responsive to Recommendation 5. The recommendation will remain open until all
grantee management actions are completed and the OIG is notified in writing.


DOCUMENTING POLICIES AND PROCEDURES

Some operating policies and procedures were not formally documented in the
grantee’s accounting manual and others were not adequately documented in the
accounting manual. Moreover, even if documented, at times the policies and
procedures were not followed. These areas included awarding contracts and
consulting agreements, reimbursing the cost of cell phones, and prohibiting the use of
LSC funds to purchase alcoholic beverages. While grantee management could
verbally describe some procedures associated with each of these areas, the verbal

                                           9
procedures were not adequate. As part of a robust internal control structure, each
grantee must develop a written accounting manual that describes the specific
procedures to be followed by the grantee in complying with the Fundamental Criteria
contained in the LSC Accounting Guide, which requires that financial controls be
established to safeguard program resources. The Government Accountability Office2
in its guidance on internal control states all transactions and other significant events
need to be clearly documented, and that the documentation requirements should
appear in management directives, administrative policies, or operating manuals.

             o Contracts and Consulting Agreements

The grantee’s documented contracting policies and procedures consisted of one
sentence in the program’s accounting manual. The one sentence required that “All
contracts with consultants and other firms must have the signature of the Executive
Director or the Director of Administration.” During the audit, grantee management
provided a revision to the contracting policy which added the requirement that
consulting contracts may be entered into only after determining there is a need and
that existing staff cannot perform the task. Even with the revision, the grantee’s
contracting policies were not sufficient. Specifically, the grantee’s contacting policies
did not address procedures to:
     solicit proposals or bids prior to entering into a contract that exceeds a specific
       dollar amount;
     fully document contracting actions by maintaining the bids received and the
       approvals given for each purchase above a reasonable level;
     document justifications for sole source purchases above a specified dollar
       amount;
     ensure that the governing body and all necessary funding source approvals are
       obtained prior to entering into contracts;
     include clearly defining services to be rendered in the written contract; and,
     document modifications to existing contracts.

             o Cell Phones

The grantee did not have formal written policies and procedures for cell phones, PDA
devices and other technology products. The grantee has an informal policy that
authorized staff members to be reimbursed for cell phone use and in some cases
provide staff members with a cell phone. While most of the reimbursements were
either $50 or $25 per month, three executives were reimbursed at a higher amount.
Staff members participating in the program were instructed to provide a copy of their
monthly cell phone bill so they could be reimbursed. According to the CFO, the
grantee is currently developing a written cell phone and Personal Digital Assistant
(PDA) policy.



2
    GAO-01-131G – Internal Control Management and Evaluation Tool ED (2/01), Page 41.

                                                 10
          o Prohibited Purchases

The grantee’s accounting manual and employee handbook do not contain any
prohibition regarding the purchase of alcoholic beverages using LSC funds. 45 CFR
§1630.3 states that recipient expenditures should be reasonable and necessary for the
performance of the grant. Also, the President of LSC issued a letter dated March 20,
2008, notifying grantees of the prohibition on purchasing alcoholic beverages, citing the
guidance in OMB Circular A-122, Cost Principles for Non-Profit Organizations, and
applying the prohibition to the use of LSC funds.

According to the CFO, the grantee does not condone alcohol purchases with LSC
funds and reminders have been sent to all employees that LSC funds cannot be used
to purchase alcoholic beverages. The CFO also noted that because the grantee is a
large program its accounting office might not detect every instance of an improper
purchase of this nature. While the accounting office may not detect each instance,
formally documenting in policy manuals that the purchase of alcoholic beverages with
LSC funds is prohibited will help ensure that purchases are not made in the first place.

Recommendations: The Executive Director should:

Recommendation 6: Develop written policies and procedures for contracts and
consultant agreements in accordance with the Accounting Guide for LSC Recipients.

Recommendation 7:      Develop written policies and procedures for controlling the use
of cell phones and other electronic devices, including reimbursement policies for staff
members using personal cell phones for business purposes.

Recommendation 8:     Develop written policies and procedures that prohibit the use of
LSC funds to purchase alcoholic beverages and implement those policies.

Grantee Comments: Grantee management stated that the grantee will revise its
policies in these areas in accordance with the OIG recommendations.

OIG Evaluation of Grantee Comments: The grantee’s actions are responsive to the
recommendations which will remain open until all grantee actions are completed and
the OIG is notified in writing.




                                           11
                                                                                              APPENDIX I


                                            LAW OFFICES OF
                                    Texas RloGrande legal Aid
                                     300 SOUTH TEXAS BOUU;:VARD
                                          WESLACO. iE:X.As 78596
                                      TELEPHONE: (90S) 447·4800
                                         FAX: (956) 968·8823
                                             WWW ,TRLA.QRG
     DAVID G. H ALL.
     EXECUTIVE DIRECTOR                                                       EMAIL: DHALL@TBLA.ORG




                                                 April 23, 2012



    Mr. Ronald D. Merryman
    Assistant Inspector General for Audit
    Office of the Inspector General
    Legal Services Co~oration
    3333 K. St., NW 3 Floor
    Washington, D.C. 20007-3522

                                                 Re: Audit of Selected Internal Controls
L
    Dear Mr. Men-yman:

           Enclosed is TRLA's response to your draft report. Feel free to let me know if you have
    any questions.




                                                 Sincerely,

                                                TEXAS RIOGRANDE LEGAL AID, INC.



                                                David G. Hall
                                                Executive Director


    encl.: as noted
    cc: Anthony Ramirez
                         Response of Texas RioGrande Legal Aid
               to the Draft Report on Selected Internal Controls of the
               Legal Services Corporation Office ofInspector General
                                         February 2012


        From May 2010 through February 2012, the Office of the Inspector General of the Legal
Services Corporation conducted an audit of internal controls of the accounting systems of Texas
RioGrande Legal Aid. During the two-year period of the audit, six on-site visits by OlG staff
occurred and several thousands of pages of documents were reviewed. The auclit concluded that
"grantee disbursements tested generally were adequately supported and allowable," that "internal
management reporting and budgeting were generally in accordance with the LSC's Fundamental
Criteria," that [i)nternal controls over employee benefits and reimbursements were generally
adequate," and that [p)olicies over employee benefits were in writing and adhered to."

       The draft report makes several recommendations for improvements to existing systems,
and these observations and recommendations will be addressed in the following remarks:

     A. Basic Field Grant Cost Allocation
         The draft audit report acknowledges that the TRLA accounting system contains a written
 description of its cost allocation system for attributing costs and expenses to various grants,
although a written description was not required by the LSC Accounting Guide until its revision
six months after the orG audit was initiated. The OrG believes that the written description did
not provide sufficient detail of the cost allocation measures and that it had not been presented to
the TRLA board of directors for its approval. TRLA' s written description follows the allocation
criteria set out in the LSC accounting manual of 2010, and has been reviewed by TRLA's
independent auditor. There is no requirement in the LSC accounting guide that the board of
directors approve allocation methods.
        TRLA operates three public defender programs in its service area, providing
representation in criminal cases through grants from state and/or county sources. Each of those
grants contains an amount of funding for administrative costs. The draft audit report observes
that some non-personnel costs for administrative activities in support of the PD program, such as
space, utilities, and supplies, were not being properly allocated to the PD grants.

       Recommendation 1. That the allocation system is fully documented The cost allocation
measures are being reviewed and edited, and will be included in the TRLA accounting policies
and procedures manual. They will also be presented to the Board of Directors when that process
is completed.
         Recommendation 2. That the al/ocalion system includes a methodology 10 allocate a
 fair share ofthe central office cosls to the public defender programs. TRLA will assure that all
 indirect non-personnel costs for the administration of the defender programs will be allocated to
 those grants or to unrestricted funds.

       B. Migrant Grants Cost Allocation System
           In 2000, at the request of LSC and the executive directors of the migrant grantees in the
   states of Louisiana, Arkansas, Mississippi, Alabama, Tennessee and Kentucky, TRLA agreed to
   provide specialized migrant legal services in those states, The Corporation had been concerned
   that the small individual state grants, as low as $31,000 per year, made it virtually impossible for
  a program to provide meaningful migrant legal services to a clientele that is very difficult,
  because of mobility and language baniers, to serve. TRLA agreed to pool the six grants
  beginning in 2001 and to operate a migrant program, dubbed "Southern Migrant Legal Services,"
  to cover migrant agricultural workers employed in the region, many of whom resided and
  worked at least part of the time in Texas. Since TRLA applied for the migrant grants, no other
  entity has submitted a request to provide such services.
           Migrant workers in the South often travel from state-to-state and are employed in anyone
  location or state for relatively brief periods oftime, sometimes for a few days, sometimes for a
  few weeks. It is not uncommon for such migrant workers to find employment in three or four of
 the SMLS states in a year, but whether they have an employment-related "case" is often more
 episodic. They may work for one crew leader in several different states for several different
 growers or packing sheds, or a family may migrate together, seeking employment wherever it
 may be found, Employment opportunities emerge and disappear annually; one state may have
 many jobs one year, but not the next.
          Using the pooled funds, TRLA operates SMLS from an office in Nashville. Although the
 combined funds - now less than $300,000 per year - only provides salaries and expenses for
 tW'ee attorneys, TRLA has generally been able to maintain at least four, and often five, attorneys
 in the Nashville office. The additional attorneys have been funded by Skadden Arps, Yale
Limon, and Equal Justice Works fellowships, or by funding from the Texas migrant grant. Using
those resources, TRLA has managed to provide some measure of service in each of the six states
every year. For example, TRLA sends its paralegals and attorneys into each state every year to
conduct outreach and community legal education and to make its services available throughout
the region , However, because oflhe patterns of migrant agricultural employment, the nature of
migrant legal services, and the de minimis size of the individual state's grants, it is virtually
impossible to guarantee that the grant in any given state in any given year will exactly match the
operations and services provided in that state.
          Nevertheless, the 010 report suggests that each state's migrant grant should be accounted
for separately and that funds from one state's migrant grant should not be used to "subsidize"
migrants who worked in a neighboring state,
         Recommendation 3. The Executive Director should ensure that a cost allocation is
 developed that accurately accounts for the expenditure ofLSC fonds for each migrant grant and
 that the LSC funds provided are expended for services applicable to the respective service area.
 Because of the impossibility of operating an effective multi-state regional migrant legal services
 program in the manner suggested by the draft report, TRLA will seek approval from the Legal
 Services Corporation to operate its Southern Migrant Legal Services program in a unified
 manner.

    C. Credit Card Transactions

        TRLA senior management, including the Executive Director, uses an American Express
card to pay for program-related expenses. Airfare, hotels, rental cars, and meals for attorney
recruitees are typical expenditures charged to the card. Each month, American Express submits
to the Accounting Department an itemized bill listing each expense incurred during the billing
period for each authorized employee. The bill includes the vendor, the date the expense was
incurred, and the amount of the expense.

         Other than items charged to the program credit card, the Executive Director does not
 request reimbursement for program-related expenditures, such as mileage and per diem during
program travel. To properly document items charged to the American Express card, the ED has
followed the recommendation ofTRLA's independent auditor: he reviews a copy of the itemized
bill each month and adds explanatory information where necessary to permit an auditor to
evaluate the appropriateness ofthe expense or its allocation, e.g., travel destination and purpose
of a trip, the purpose of a meeting where meal expenses were incurred and the attendees, etc. All
of the information that would be included in a travel reimbursement form is noted on the copy of
the AmEx statement; however, the ED does not submit a reimbursement form because he does
not request reimbursement.

        Recommendation 4. The Executive Director should ensure that policies and procedures
are followed by staff members, including ensuring that credit card purchases are supported by
receipts and that travel reports are filed as requiredjor all travel. If the Executive Director
requests reimbursement for program related travel or other expenses, he will submit the travel
reimbursement reports recommended by the draft report.

    D. Prior Approval for Out-of-Town Travel
         TRLA has a policy requiring an employee to obtain advance approval before inCUrring
out-of-town travel expense, but there is no requirement that the approval be made in writing. If
the employee fails to obtain prior approval and incurs travel expenses, those expenses may be
disallowed if the primary supervisor refuses to grant approval. The oro draft report suggests
that this policy is inadequate, and that the policy should be amended to require prior written
approval.
        Recommendation 5. The Executive Director should take action to ensure compliance
with the grantee 's policy on documenting supervisory approval prior to employees embarking on
out-oftown travel. The ED will revise the policy to require prior written approval for out-of-
town travel.

    E . . Documenti~g Policies and Procedures
          The OIG repOlt suggests that TRLA needs additional written documentation on its
policies regarding consultant contracts, personal cell phone reimbursement, and the purchase of
alcoholic beverages with LSC funds .
         Recommedation 6. Develop writtenpalicies andproceduresfor contracts and
consulting agreements in accordance with the Accountlng Guide for LSC Recipients. TRLA will
revise its policies in this area in accordance with the OIG recommendation.
         Recommendation 7. Develop written policies and procedures for controlling the use of
cell phones and other electronic devices, including reimbursement policies for staffmembers
using personal cell phones for business purposes. TRLA will revise its policies in this area in
accordance with the OIG recommendation.
        Recommendation 8. Develop written policies and procedures that prohibit the use of
LSC fonds to purchase alcoholic beverages and implement those policies. TRLA will revise its
policies in this area in accordance with the 010 recommendation.
